No.19-414
IN THE

MEDTRONIC, INC.,

Petitioner,

V.
MARK A. BARRY, M.D.,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 10th day of December, 2019, all parties required to be served have been served
copies of the Reply Brief for Petitioner in this matter by overnight courier to the
address below.

Counsel for Respondent
ADAM HOWARD CHARNES
KILPATRICK TOWNSEND & STOCKTON LLP

2001 Ross Avenue, Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

